No. 21-118
IN THE

Supreme Court of the United States
_________
APPLE INC.,
Petitioner,
v.
OPTIS CELLULAR TECHNOLOGY, LLC, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 27th day of August 2021, caused a paper copy of the Brief of
Roku, Inc. as Amicus Curiae in Support of Petitioner to be delivered to the Court and
an electronic version of the document to be delivered to:
Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
catherine.carroll@wilmerhale.com
202-663-6072

Jason Sheasby
Hong Annita Zhong
Irell & Manella LLP
1800 Avenue of the Stars
Los Angeles, CA 90067
jsheasby@irell.com
hzhong@irell.com

Counsel for Apple Inc
Counsel for Respondents
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.
Adam G. Unikowsky
Adam G. Unikowsky

